HHS/OIG, Audit - "Review of Medicare Payments to VNA Care Network, Inc., for Home Health Services Preceded by Hospital Discharge," (A-01-06-00514)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Medicare Payments to VNA Care Network, Inc.,
for Home Health Services Preceded by Hospital Discharge," (A-01-06-00514)
July 26, 2007
Complete Text of Report is available in PDF format (316 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective
of this review was to determine whether VNA Care Network, Inc., (the agency)
complied with Medicare requirements in billing for fiscal years 2004 and 2005
services for beneficiaries who had been discharged from an acute-care hospital
in the preceding 14 days. The agency improperly coded 161 claims as if the
beneficiaries had not been discharged from an acute care hospital within the
14-day period preceding the home health admission.  The Centers for Medicare &
Medicaid Servicess prepayment edit corrected 138 of the 161 claims.
Overpayments for the 23 claims not identified by the edit totaled $6,178.  We
recommended that the agency:  (1) return the $6,178 overpayment to the
appropriate regional home health intermediary and (2) further educate its staff
regarding the importance of identifying all facilities that had discharged the
beneficiary within 14 days of the home health episode and determining which of
these facilities were acute care (including long-term care) hospitals.  The
agency agreed with our findings.